U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 18, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Liberatrian National Committee, Inc. v. Federal Election Commission,
S.CtNo. 19-234

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 19,
2019, and placed on the docket on August 22, 2019. The government's response is due on
September 23, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 23, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0234
LIBERATRIAN NATIONAL COMMITTEE, iNC.
FEDERAL ELECTION COMMISSION

ALAN GURA
GURA PLLC
916 PRiNCE STREET
SUITE 107
ALEXANDRIA, VA 22314
703-835-9085
ALAN@GURAPLLC.COM
JACOB HUEBERT
GOLDWATER iNSTITUTE
500 E. CORONADE RD.
PHOENIX, AZ 85004
602-462-5000
IHUEBERT@GOLDWATERINSTITUTE.ORG
ILYA SHAPIRO
CATO iNSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG

